!«

fcfJl

72

In the

Supreme Court of the United States
SuPrem4g«,u.s.

F£B 12 2021
2S!Smrm£m

Kerrin Barrett
Petitioner,
v.
PAE GOVERNMENT SERVICES, INC.; AREYAL HALL,
Officer, Arlington County Police Department; WILLIAM K.
LIETZAU; SEAN HORNER; SHANEDRLA W1LBORN; BRIAN
GALWAY; JOSHUA LUZIER, Officer,
Respondents.

On Petition for a Writ of Certiorari to the United States Court of
Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI
Kerrin A. Barrett
5753 Highway 85 N, #2926
Crestview, FL 32536
(850)331-8916

Date: February 11, 2021

Received
FEB 2 4 2021
juEj?#M°lr%if.SLEl3l<

QUESTION PRESENTED

1. Whether the temporal scope of the emergency doctrine governing warrantless
seizures for “community caretaking” extends beyond the immediate circumstances
presented to police?

ii

LIST OF PARTIES
Petitioner is Kerrin A Barrett. Respondents are PAE Government Services, Inc.;
William K. Lietzau, individually and in his capacity as an employee of PAE; Sean Homer,
individually and in his capacity as an employee of PAE; Shanedria Wilbom, individually and
in her capacity as an employee of PAE; Areyal Hall, individually and in her official capacity
as an Officer of the Arlington County Police Department; Joshua Luzier, individually and in
his official capacity as an Officer of the Arlington County Police Department; Brian Galway,
individually and in his official capacity as county mental health assessor for the Arlington
County Department of Human Services.

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED

1

LIST OF PARTIES

11

TABLE OF AUTHORITIES

v

INDEX TO APPENDICES

viii

INTRODUCTION

1

OPINIONS BELOW

4

STATEMENT OF JURISDICTION

4

CONSTITUTIONAL AND STATUTORY PROVISIONS

5

STATEMENT OF THE CASE

5

SUMMARY OF ARGUMENT

15

ARGUMENT

17

I.

The Fourth Amendment Demands that Probable Cause Exist Regardless of

Whether Or Not A Warrant Is Issued

17

A.

The Common Law Spumed Warrantless Seizures of Persons

B.

The Fourth Amendment Prohibits Warrantless Seizures in The Absence of

Consent or Exigent Circumstances
C.
II.

17

The Expectation of Privacy Within the Home Extends to the Office

18
23

The Temporal Nature of “Emergency And Exigent Threat” in Warrantless

Seizures Under the Fourth Amendment is Ill-Defined

25

IV

A.

The Court Has Never Provided Guidance on the Actual Timespan

Constituting “Emergency And Exigent Threat” Circumstances, in Particular With
Regard to Community Caretaking and Seizures for “Mental Health Evaluations”
B.

28

State Statutes, in Particular, for Warrantless “Mental Health Seizures”, Run

the Gamut from Amorphous Definitions of “Recent Threatening Behavior” to Crystal
Ball Predictions Of “Near Future” Threats
C.

31

The Community Caretaking Exception comprising “emergency” and

“exigent” circumstances is Antithetical to the Fourth Amendment's Protection of the
Rights of Citizens to be Free from Government Seizure
III.

34

Law Enforcement Officers and Others Need Clarification on the Temporal

Aspect of The “Objectively Reasonable Standard” That Constitutes An “Emergency” For
Community Caretaking Purposes

37

REASONS FOR GRANTING THE PETITION

37

CONCLUSION

39

V

TABLE OF AUTHORITIES
Cases
Addington v. Texas, 441 U.S. 418, 425 (1979)....

23

Agnello v. United States, 269 U.S. 20, 30 (1925)

21

Aouatifv. City ofNew York, (No. 07-CV-1302, United States District Court, E.D. New York). 30
Bailey v. Kennedy, 349 F.3d 731, 739 (4th Cir. 2003)

13

Bailey, 349 F.3d at 740.........................................................................

23

Bd. ofRegents of State Colls, v. Roth, 408 U.S. 564, 569-70 (1972))

21

Bell v. Burson, 402 U.S. 535, 542 (1971)

21

Boddie v. Connecticut, 401 U.S. 371, 379 (1971)

21

Boyd v. United States, 116 U.S. 616

17

Caniglia v. Strom, 2021 WL 122908

34

Carroll v. United States, 267 U.S. 132, 158 (1925)

21

Chimelv. California, 395 U.S. 752, 761 (1969).........

ri

2

Cloaninger v. McDevitt, 555 F.3d 324 (4th Cir. 2009)

24

Coolidge v. New Hampshire, 403 U.S. 443.................................................

21

Cooper v. California, 386 U.S. 58, 61-62 (1967).......................................

23

Entick v Carrington, 19 Flowed’s State Trials 1029, 95 Eng. 807 (1705),

17

Fuentes v. Shevin, 407 U.S. 67 (1972)

22

Gilbert v. Homar, 520 U.S. 924, 930 (1997)

22

Goines v. Valley Cmty. Servs. Bd., 822 F.3d 159, 172 (4th Cir. 2016)

13

Gooden v. Howard County, 954 F.2d 960, 968 (4th Cir. 1992).........

23

vi
Harris v. United States, 390 U.S. 234, 236 (1968)

23

Humphrey v. Cady, 405 US 1972

32

Illinois v. Gates, 462 U.S. 213, 103 S. Ct. 2317, 76 L. Ed. 2d 527, 1983

19

Katz v. United States, 389 U.S. 347 (1967)

16

Mancusi v. DeForte, 392 U.S. 364, 368 (1968)

24

Missouri v. McNeely, 569 U.S. 141 (2013)

25

Opperman, 428 U.S. at 367

23

People v. Issac, 599 N.Y.S.2d 113, 114 (N.Y. App. Div. 1993)

20

People v. Ramey, 545 P.2d 1333,1341

25

Raub v. Campbell, 3 F. Supp. 3d 526 (E.D. Va. 2014)

24

Raub v. Campbell, 3 F. Supp. 3d 526, 532 (E.D. Va. 2014)

23

Raub v. Campbell, 785 F.3d 876 (4th Cir. 2015)

24

Roth, 408 U.S. at 570 n.7

21

Simon v. Cook, No. 08-253, 2008, WL 3977596

30

Spinelli v. United States, 393 U.S. 410 (1969)

20

State of Oregon v. M.A, 240 Or.App. at 84, 245 P.3d 697

30

State v. Klauss, 562 A.2d 558, 561 (Conn. App. Ct. 1989)

20

State v. Vargas, 63 A. 3d 175, 213 NJ 301

29

Tennessee v. Garner, All U.S. 1 (1985)

19

United States v. Anderson, 154 F. 3d 1225 (10th Cir, 1998)

28

United States v. Bute, 43 F.3d 531, 540 (10th Cir. 1994)

26

United States v. Curry, 965 F.3d 313, 322-23 (4th Cir. 2020)

27

United States v. McConney, 728 F. 2d 1195 (1984)

25

Vll

United States v. United States District Court, 407 U.S. 297, 320 (1972)

21

United States v. Wilson, 953 F.2d 116, 126 (4th Cir. 1991)

27

Villanova v. Abrams, 972 F.2d 792, 795 (7th Cir. 1992)

23

Weeks v. United States, 232 U.S. 383, 392 (1914)

20

Wood v. Commonwealth, 484 S.E.2d. 627, 630 (Va. Ct. App. 1997)

27

Statutes
N.Y. Mental Hyg. Law § 9.01 and 9.39

35

Va. Code Ann. § 37.2-808.A

14

Va. Code Ann. § 37.2-809(B)

15

Va. Code Ann.§ 37.2-809(B)

11

Other Authorities
Civil commitment due to mental illness and dangerousness: the union of law and psychiatry
within a treatment-control system, Sociology of Health & Illness, Vol. 22 No. 5, 2000, pp.
679-699

29

Constitution Annotated: Amdt4.2.1 Scope of the Rights Protected by the Fourth Amendment:
Overview, Congress.gov.

2

Criminalizing mental disorder. The comparative arrest rate of the mentally ill. Teplin LA, Am
Psychol. 1984 Jul; 39(7):794-803.
Hedman, L., et. al., State Laws on Emergency Holds for Mental Health Stabilization, 2016

28
31

Horizons of Context: Understanding the Police Decision to Arrest People With Mental Illness.
Melissa Morabito, 2007

28

Vlll

J.F. Decker, Emergency Circumstances, Police Responses, and Fourth Amendment Restrictions,
18

1999
Joseph Blocher and Jacob D. Charles, Firearms, Extreme Risk, And Legal Design: ‘‘Red Flag”
Laws And Due Process First, 106 Va. L. Rev. 1285 (2020)

22

Quasi in Rem Jurisdiction and Due Process Requirements, 82 Yale LJ. 1023, 1028 (1973)....22
R. Tanner Sledge, Denver Law Review, Expanding Mental Health Autonomy in Colorado (2019)
33

Richard C. Boldt, 10 Drexel L. Rev. 1 (2017)

32

Constitutional Provisions
18

U.S. Const, amend. IV.

INDEX TO APPENDICES
Page
Volume I: Federal Court Decisions
APPENDIX A
Opinion - U.S. Court of Appeals 4th Cir.

aVI-1

APPENDIX B
Order - January 25, 2019 - U.S. District Ct Eastern District VA

aVl-32

Order - April 9, 2019 - U.S. District Ct Eastern District VA

aVl-48

APPENDIX C
Appellant Appeal
Appellee’s Response to Appeal

aVl-70
aVl-138

IX

Appellant Reply

aV 1-206

Volume II: Related Case Law (4th Cir.)
APPENDIX D
Raub v. Campbell 4th Cir. Opinion 2015

aVII-1

Goines v. Valley Community Services Bd. 4th Cir. Opinion 2016

aVII-24

Cloaninger v. McDevitt 4th Cir. Opinion 2009..........................

aVII-55

Gooden v. Howard County 4th Cir. Opinion 1992.....................

aVII-74

PETITION FOR A WRIT OF CERTIORARI

Petitioner Kerrin A. Barrett, pro se, respectfully petitions for a writ of certiorari issue
to review the judgment and opinion of the United States Court of Appeals for the Fourth
Circuit, filed on September 15, 2020.
INTRODUCTION
In Missouri v. McNeely (2013), the Supreme Court clarified, "A variety of
circumstances may give rise to an exigency sufficient to justify a warrantless search,
including law enforcement's need to provide emergency assistance to an occupant of a home .
.. engage in “hot pursuit” of a fleeing suspect... or enter a burning building to put out a fire
and investigate its cause." Lower courts are primarily in agreement that these “exigencies”
are defined by their very immediacy; if action is not taken at once, serious consequences will
follow in short order. However, these circumstances deemed sufficient to justify a
warrantless search, to include seizures, vary considerably throughout the lower courts
concerning the issue of temporality. Where exigent circumstances should be bounded by the
immediate circumstances in which officers find themselves, this definition has been stretched
by Courts, including the Fourth Circuit, to include circumstances and allegations that
occurred days, weeks and even months before the “exigent” circumstance. This expansion of
the Court’s intent in Missouri v. McNeely must be reined in to prevent the continued erosion
of Fourth Amendment protections.
The Fourth Amendment in this case as it applies to a warrantless seizure is based
upon constitutional law and the Civil Rights Act of 1871, which was based on the Federal
Civil Rights Act of 1866, as well as the passage of the Fourteenth Amendment. This history

2

can be traced back to and include the Charter of Liberties from Great Britain in the 1100s.
These fundamental legal protections were specifically intended to prevent the intentional
misuse of governmental power.
“The [Fourth] Amendment was in large part a reaction to the general warrants and
warrantless searches that had so alienated the colonists and had helped speed the movement
for independence. In the scheme of the Amendment, therefore, the requirement that ‘no
Warrants shall issue, but upon probable cause,’ plays a crucial part.” (Chimel v. California,
395 U.S. 752, 761 (1969).)
By 1992, it was no longer the case that the “warrants-with-narrow-exceptions”
standard normally prevails over a “reasonableness” approach (Constitution Annotated:
Amdt4.2.1 Scope of the Rights Protected by the Fourth Amendment: Overview,
Congress.gov). Exceptions to the warrant requirement have multiplied since that time, and
with it the role of the police in community caretaking continues to expand.
Despite these bedrock Fourth Amendment principles, some lower courts, including
the Fourth Circuit below, have expanded the definition of probable cause in warrantless
searches and seizures well beyond the immediate and reasonable.
The notion of temporality necessarily intersects with reasonableness and totality of
the circumstances, which establish probable cause. Thus, a lack of a definition of
temporality in exigent circumstances muddies the waters of reasonableness and totality,
potentially establishing probable cause where there is none. Either a situation is an
emergency right now, or it is not an emergency. Short of a Schrodinger's cat situation, an
emergency does not exist in the future.

3

The U.S. Supreme Court has not written much about community caretaking and has
referred to only three times: Cady v. Dombrowski (1973), South Dakota v. Opperman (1976)
and Colorado v. Bertine (1987). All three decisions involved searches of automobiles.
Moreover, it has been more than 40 years since this Court issued its landmark ruling
on involuntary commitment (Addington v. Texas, 1979). The Court held that “the
individual's liberty interest in the outcome of a civil commitment proceeding is of such
weight and gravity.. .that due process requires the state to justify confinement by proof more
substantial than a mere preponderance of the evidence,” drawing a bright line for this type of
warrantless seizure under the Fourth Amendment. Since Addington, Circuits have varied
widely in their interpretation of the Fourth and Fourteenth Amendments as they apply to
“mental evaluation” warrantless seizures under the community caretaking exception to the
Fourth Amendment.
Still today there remains a gaping hole in the Fourth Amendment concerning
community caretaking “mental health evaluations,” with the number and breadth of these
warrantless seizure exceptions growing steadily. State statutes vary widely and lower court
decisions are uneven on applying Fourth Amendment protections to citizens seized by police
under the guise of a “mental health evaluation.”
Multiple judges have written separately on the sharply defined requirement for the
“exigent” and “emergency” circumstances necessary for police to have probable cause in
their community caretaking role to seize a citizen for a “mental health evaluation.” Yet the
criteria for what actually comprises “exigent” and “emergency” remains elastic throughout

4

the circuits, and only this Court can now clarify the temporal requirements for a warrantless
“mental health” seizure.
The decision below should be reversed.
OPINIONS BELOW
The District Court’s order granting Respondents’ Motions to Dismiss is unpublished
{Barrett v. PAE Government Services, Inc., Case No. 19-1394 WL 10814589 E.D. Va., Jan
25, 2019)). (Pet. App. B, aVI-32) and the District Court’s order granting Respondents’
Motion for Summary Judgment is unpublished {Barrett v. PAE Government Services, Inc.,
Case No. 19-1394 WL 10814594 E.D.Va., Apr. 09, 2019)). (Pet. App. B, aVI-48). The
Fourth Circuit’s opinion affirming the District Court’s judgment (Pet. App. A, VI-1) is
published at 975 F.3d416.
The opinion of the Court of Appeals for the Fourth Circuit that is the subject of this
petition is reported in Barrett v. PAE Government Services, Inc. 975 F.3d 416 (4th Cir. 2020),
and is reprinted in the appendix hereto, p. aVI-1-31, infra.
The documents deemed relevant to this Petition are reprinted in the Appendix.
(Appendix Vol. I and Vol. II).
STATEMENT OF JURISDICTION
The Fourth Circuit entered judgment on September 15, 2020. This petition is timely
under Rule 13 of the Supreme Court Rules and within the 150 day deadline currently in

5

effect under the Supreme Court’s March 29, 2020 Order. The Court has jurisdiction of this
appeal under 28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
The Fourth Amendment to the U.S. Constitution provides:
The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be violated,
and no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
STATEMENT OF THE CASE
A. Petitioner reports a stalking incident to her immediate supervisor
On July 13, 2017, Dr. Barrett was a 59-year-old, Harvard-educated researcher with a
Ph.D. who was working, as she had for much of her professional life, on behalf of the United
States on sensitive projects related to national security and nation-building. (Pet.App. C aVI70) JA19-21; JA458-59; JA731. On July 6, 2017, Dr. Barrett left PAE’s Arlington offices
and began walking to a nearby Starbucks coffee shop. As she did so, she passed through the
courtyard outside of her building, which an adjacent building shared. There, Dr. Barrett
noticed a South Asian man look at her and then urgently take out his cell phone and make a
call. JA122:3-21; JA512. She told Mr. Lietzau, her manager, about this incident and asked
him what she should do, and he suggested that she speak to Mr. Homer, a security manager
at PAE. Since working with Mr. Lietzau in May of 2016, Dr. Barrett had told him about
stalking she had experienced in Dubai and then in the United States. JA455:8-13; JA456:11-

6
17; JA561:8- 562:8; JA566:12-19. On July 10, 2017, Dr. Barrett met with Mr. Homer and
told him about the incident that she shared with Mr. Lietzau. JA423:5-12; JA425:14-426:4;
JA494:13-495:14. The following day, Ms. Wilbom, a human resources manager at PAE, met
with Dr. Barrett. Dr. Barrett had never met either Mr. Homer or Ms. Wilbom before July 10,
2017. JA522:1-8; JA523:18-524:8.
B. Petitioner’s employer engages with local police and county health officials
repeatedly over a period of days
On July 12, 2017, Mr. Homer telephoned the non-emergency line for the Arlington
County Police Department and asked to speak to a police officer about Dr. Barrett. JA427:27; JA428:4-14; JA429:22-430:3. Mr. Homer testified he did not do so to alert the police that
Dr. Barrett posed a danger to herself or others but to inquire whether they would be able to
assist her, including help her investigate her stalking claims. JA435:4-436:5. On July 12,
2017, Officer Hall and Officer Luzier were dispatched to respond to Mr. Homer’s non­
emergency call. JA601:12-14; JA694:20-695:2. The police dispatcher did not indicate that
the call from Mr. Homer was an emergency. JA603:2-11. Neither Officer Hall nor Officer
Luzier traveled to PAE’s offices with their emergency lights or sirens activated in their police
cars. JA602:17- 603:1; JA696:4-7.
Mr. Homer told Officers Hall and Luzier that Dr. Barrett said that she owned a gun
but that she knew she was not permitted to bring it inside PAE’s offices. At that time, Dr.
Barrett owned one Glock handgun, which she had purchased on the advice of a co-worker in
2006 while living in Albuquerque. JA468:19-469:2; JA470:7-21; JA516; JA 158:3-10;
JA699:l-7.

7

Mr. Homer also told Officers Hall and Luzier that Dr. Barrett had contacted another
police department to report that she was being stalked. JA607:14-608:4. Officer Luzier and
Officer Hall never spoke to anyone at the Fairfax County Police Department regarding Dr.
Barrett’s police reports despite having the information to do so, and neither did Mr. Homer.
JA701:22-702:5; JA703:19-704:8. Mr. Homer also testified that he did not say to Officer
Luzier and Officer Hall on July 12, 2017 that he was concerned that Dr. Barrett would harm
herself or others. JA607:6-9. Mr. Homer hoped that Officers Hall and Luzier would speak to
Dr. Barrett on July 12, 2017. JA436:7-10.
But because Dr. Barrett was not in PAE’s offices on July 12, 2017, Mr. Homer
agreed with Officer Hall and Officer Luzier to contact the police when Dr. Barrett was in
PAE’s offices and able to speak to the police. Mr. Homer also agreed, in the meantime, to
contact the Arlington County Department of Human Services (“DHS”). JA433:6-21. After
she left PAE’s offices on July 12, 2017, Officer Hall did not have enough information to
determine if Dr. Barrett was being stalked, JA700:4-12, and Officer Hall admitted that she
had no basis to know whether or not individuals were following Dr. Barrett, as Dr. Barrett
described. JA709:5-8. Nevertheless, after Officer Hall and Officer Luzier left PAE’s offices
on July 12, 2017, Officer Hall took no further actions regarding Dr. Barrett that day.
JA701:22-702:5. In an email to both officers that afternoon, Mr. Homer apologized for Dr.
Barrett’s absence that morning, stating that if they “did not take care of her”, PAE would take
care of her “privately.” Later on July 12, 2017, after Officer Hall and Officer Luzier had left
PAE’s offices, Mr. Homer telephoned Alexis Mapes, a supervisor at DHS’s Emergency
Services. JA152:2-153:1.

8

C. The officers seize Petitioner from her office without a warrant under the community
caretaking exception despite the lack of any exigent circumstances
On the morning of July 13, 2017, after Mr. Homer learned from Dr. Barrett’s
manager, Allison Eastridge, that Dr. Barrett was at PAE’s offices attending a budget meeting,
he called the Arlington County Police Department non-emergency telephone number to
request that the officers he had spoken to the day before return to PAE’s offices to speak to
Dr. Barrett. JA439:18-440:10; JA441:6-9; JA441:19-442:4; JA443:5-20. Mr. Homer
testified that when he telephoned the police on July 13, 2017, he did not believe that Dr.
Barrett posed any emergency. JA439:12-16. Officer Hall and Officer Luzier were
dispatched to PAE’s offices again on July 13, 2017. JA611:7-9; JA704:16-705:4. The radio
dispatch call did not indicate that the call was high priority. JA612:7-20. As Officer Hall and
Officer Luzier drove to PAE’s offices, they did not turn on their emergency lights or sirens.
JA612:21-613:2; JA706:16-22.
When Officer Hall and Officer Luzier arrived at PAE’s offices on July 13, 2017, they
spoke with Ms. Wilbom. JA614:12-615:4. Dr. Barrett was then lured into a PAE conference
room by Ms. Wilburn, ostensibly to give a police report, where she met Officer Hall and
Officer Luzier. JA618:15-20. Dr. Barrett was dressed in business attire at that time, appeared
even-keeled and not disheveled. JA618:5-14. Ms. Wilbom then sat next to Dr. Barrett
around the conference table. JA618:21-619:12.
Officer Luzier asked Dr. Barrett to describe her concerns or situations that she had
experienced in the past few days. JA623:2:6. Dr. Barrett described being followed by black
SUVs and having people ringing her doorbell. JA624:3-17. She also said that she had

9
contacted the police about those incidents and they were investigating her claims. JA624:1719; JA635:l-5.
Dr. Barrett also told Officer Hall and Officer Luzier that she had seen a man outside
of PAE’s offices watching her while using his phone. JA625:7-13. Dr. Barrett described to
Officer Luzier and Officer Hall how she had asked the security guard in the lobby of the
building adjacent to PAE’s offices about the man who had been watching her. JA537:10-15.
While speaking to Officer Hall and Officer Luzier, Dr. Barrett remained calm, did not
exhibit any violent actions, never threatened herself or others, and never said that she wanted
to hurt others. When asked by Officer Hall or Officer Luzier whether she intended to harm
herself or others, Dr. Barrett said she did not. JA629:9-630:16; JA707:5-10; JA708:17-19.
Nevertheless, a paperless ECO was issued against Dr. Barrett, ostensibly because Dr.
Barrett posed a risk both to herself and to others. Officer Hall then drove Dr. Barrett to the
Virginia Hospital Center (“VHC”) emergency room. JA634:5-18. There is no evidence in the
record - and none in this case - of Dr. Barrett ever confronting anyone about her stalking,
nor of any reports by her (actual) co-workers that she was acting in a threatening manner.
After Petitioner was seized, Ms. Wilbom prepared a statement to the police, at the
request of Officer Luzier, purporting to relate what Dr. Barrett had told Ms. Wilbom on July
11, 2017. JA539:1-6. Officer Hall never saw the statement before issuing the ECO. In
deposition, Ms. Wilbom stated she did not prepare the statement until after the ECO was
issued. That statement was stapled to the police report. The police report itself did not
contain any references to Dr. Barrett posing a threat to herself or others.

10

At the VHC, Mr. Galway was designated by the Arlington County CSB to examine
Dr. Barrett. JA644:7-10. In evaluating Dr. Barrett, Mr. Galway spoke to Ms. Wilbom and
Mr. Lietzau. JA645:13-646:21; JA647:6:9; JA653:20-654:13. During his telephone call with
Mr. Lietzau, Mr. Galway said that he did not see much reason to keep her and was thinking
of releasing her. JA5 81:2-21. Mr. Galway asked Mr. Lietzau if that concerned him. Mr.
Lietzau said that it did not. JA5 82:1-13.
On the afternoon of July 13, 2017, five minutes after speaking with “HR,” Mr.
Galway signed a Petition for Involuntary Admission for Treatment to keep Dr. Barrett
confined in VHC’s psychiatric ward. JA661:19-662:5; JA725-26. Later on July 13,2017, a
magistrate judge issued a Temporary Detention Order. JA728-29. Notably, in his petition,
Mr. Galway did not check the preceding box to indicate that Dr. Barrett “has a mental
illness.”1
On the morning of July 17, 2017, an independent mental health evaluator examined
Dr. Barrett and concluded that she did not meet the criteria for mental health involuntary
commitment. JA666:13-668:21; JA731-33. Dr. Barrett remained in VHC’s psychiatric ward

1 The General District Court, specifically, Magistrate Jason Brayton-Lewis, signed and issued the TDO
at 5:15 p.m. on July 13th. Mr. Galway, however, did not complete and sign the preadmission screening report
until 6:55 p.m., and the report was not finally approved until 7:07 p.m., nearly two hours after the General
District Court issued the TDO. Contrary to Mr. Galway’s representation, it was not possible for his
preadmission screening report to be attached to his petition for a TDO, as his petition stated it was. Because Mr.
Galway’s TDO petition could not have included the preadmission screening report (which separately reported
his examination of Dr. Barrett) when he presented his TDO petition to the Magistrate, nothing on the face of the
TDO petition, and no attachments to the TDO petition, indicated that Mr. Galway had examined Dr. Barrett,
even though the TDO states that an evaluation had been done by Mr. Galway as a precondition for the issuance
of the TDO. The TDO also indicated that it was issued “upon the sworn petition of Brian Galway” and that Mr.
Galway had concluded in his TDO petition that Dr. Barrett suffered from a mental illness, when in fact Mr.
Galway’s TDO petition did not reflect any such conclusion. (Second Amended Complaint, pp. 37-38).

11
until later on July 17, 2017, following a commitment hearing before a special justice, who
dismissed Dr. Barrett’s case. JA56-57 U 230; JA57-58 f 237.
D. The lower courts uphold the warrantless seizure despite the lack of an emergency or
exigent threat from Petitioner
Petitioner sued PAE Government Services, Inc. and several of its employees, along
with Arlington County and the individual officers under 42 U.S.C. § 1983 in the Federal
District Court for the Eastern District of Virginia. Petitioner alleged that Respondents
violated her rights under the Fourth Amendment. See id. at 53a. She also brought claims
under Virginia law. The parties cross-moved for summary judgment. The District Court
granted summary judgment for both PAE and Arlington County. The Fourth Circuit
affirmed.
At issue here is Petitioner's claim that her seizure from the office violated her Fourth
Amendment rights. Respondents' only justification for their nonconsensual, warrantless
entry and seizure was the exigent circumstances exception to the warrant requirement based
on “the totality of the facts and circumstances”. Pet. App. aVI-18, 20.
The District Court gave credence to the county mental health assessor’s claim that
despite his doubts, he needed to detain her to address a “perceived acute risk.” But it was
unreasonable for him to perceive an “acute” risk. Nothing had occurred in the preceding
months, weeks and days that established any such risk. The incident-free week after the
events of July 6 should have indicated to assessor (and earlier, to police officers) that Dr.
Barrett was not substantially likely to harm herself or others in the near future. That finding
of a threat of immediate harm, as required by statute, Va. Code Ann.§ 37.2-809(B), was

12

missing from the assessor’s conclusion. By petitioning to confine her under a Temporary
Detention Order (TDO) anyway, Petitioner was falsely imprisoned and her Fourth
Amendment rights violated.
The issuance of a paperless ECO against Petitioner, contrary to the finding of the
District Court, JA778, violated clearly established law, as shown from a comparison of
Petitioner’s circumstances to existing cases in which the plaintiff was also subject to
involuntary hospitalization. Such law exists from the Fourth Circuit’s examination of mental
health detentions. Pet. App. aVI-129. In these Fourth Circuit rulings (Pet. App. D), exigent
circumstances were enveloped by threatening behaviors emanating directly from the person
at the time the police arrived on scene. In contrast, Petitioner made no threats against the
police, and the police learned that Dr. Barrett had no history of encounters with the Arlington
DHS.JA637:16-638:9.
In affirming the decision of the lower court, the Fourth Circuit’s Opinion claims that
“the question of whether probable cause existed is based upon the totality of the facts and
circumstances presented to the Arlington County defendants, including the reports of all of
the persons involved when they made the difficult judgment call to detain Plaintiff for the
emergency mental health evaluation.” Pet. App. aVI-20 (emphasis added). Here, probable
cause hinges on making “a difficult judgement call,” providing clear evidence that this
seizure was not based on exigent circumstances as required by under the Fourth Amendment.
Were this an actual emergency, there would have been no hesitation to seize Petitioner to
protect her life or the lives of those in the office.

13
The court framed their opinion by stating that
The Fourth Amendment protects the people “against unreasonable
searches and seizures.” U.S. Const, amend. IV. Determining whether a
person’s Fourth Amendment rights have been violated in the mental health
context requires us to determine whether the officials had probable cause to
seize the person for an emergency mental evaluation. See Bailey v. Kennedy,
349 F.3d 731, 739 (4th Cir. 2003). Such probable cause exists “when the facts
and circumstances within the defendant’s knowledge and of which the
defendant had reasonably trustworthy information were sufficient to warrant a
prudent man to believe that the person poses a danger to himself or others.”
Goines v. Valley Cmty. Servs. Bd., 822 F.3d 159, 172 (4th Cir. 2016) (internal
quotation marks omitted). “Because probable cause deals with probabilities
and depends on the totality of the circumstances, it is a fluid concept that is
not readily, or even usefully, reduced to a neat set of legal rules.” Wesby, 138
S. Ct. at 586 (internal citations and quotation marks omitted). Pet. App. aVI17-18
The court’s opinion hinges exclusively on alleged statements made by Petitioner to
PAE Defendants in the days previous; the Petitioner’s own words to county officials were
never threatening at any time, in particular on the day of her seizure and detention. Applying
the “totality of the circumstances” to establish probable cause for Petitioner’s warrantless
seizure, the court gives credence to the words of only two individuals: “There is no evidence
that the officers had reason to question the veracity of the information that the PAE

14
defendants reported to them. The reporting persons were management officials—a PAE
security manager and human resources manager.” Pet.App. aVI-22. The two PAE employees
feared that Petitioner might harm another employee. Id. Since that information was
suppositional and predictive, there was no evidence of an exigent circumstance necessary for
probable cause.
In arriving at its decision, the court conflated Petitioner’s words with those of the
Defendants, “[i]n the end, therefore, the statements of the PAE defendants and Plaintiff were
remarkably consistent.” Pet. App. aVI-22] The court repeated itself stating that “[a] decision
had to be made, and the officers made the reasonable, albeit difficult, judgment call that
Plaintiff posed a danger to herself and others and should be transported to the hospital for a
mental health evaluation.” (emphasis added)
In its opinion, the court cited Va. Code Ann. § 37.2-808.A; see also id. § 37.2-808.G
(“A law-enforcement officer who, based upon his observation or the reliable reports of
others, has probable cause to believe that a person meets the criteria for emergency custody .
. . may take that person into custody”) to justify the seizure of Petitioner.
In extending qualified immunity to the mental health assessor, the court again applied
the totality argument, to wit, “we must evaluate whether Galway had probable cause to detain
Plaintiff based upon the totality of the facts and circumstances known to him when he made
his decision, and not based upon a culling of the more favorable reports that he received.”
Pet. App. aVI-23.

15
In sum, in issuing its opinion, the court relied solely on the words of only two people
in its decision, which even liberally construed cannot equate to the “totality of the
circumstances and facts.”
Absent clear guidance on temporality concerning what constitutes an “exigent”
circumstance under exceptions to the warrant clause of the Fourth Amendment, Defendants
had carte blanche to seize and detain Petitioner.
SUMMARY OF ARGUMENT
Introduction
Respondents violated Petitioner’s Fourth Amendment rights when they conspired
together and seized her from her office without a warrant. The justification Respondent’s
offered is that she was “dangerous” to others under Va. Code Ann. § 37.2-809(B), and, if not
immediately removed from the office, could cause serious harm to another employee. But
that justification was based solely on reports from only two other employees who were
coached by the company’s legal team; Petitioner had never threatened anyone at any time,
nor had exhibited any threatening behavior either before or during her interactions with
police and county officials. The courts have been clear that the warrantless seizures
exception to the Fourth Amendment requires exigent circumstances. Yet these rulings
conflict with the majority of state statutes for community caretaking seizures involving
“mental health evaluations,” which extend the timeline of “exigent circumstances” to well
beyond the arrival of the police and their investigation. This boundless “community
caretaking” function grants police and other officials acting under the color of law a blank
check to intrude upon a citizen’s right to privacy. The result contradicts this Court's

16
precedent, is antithetical to the Fourth Amendment, and does not aid in protecting people in
need.
I.

Exceptions to the warrant requirement are now evaluated by criteria other than
exigent circumstances, resulting in a considerable expansion, beyond what existed
prior to Katz v. United States, 389 U.S. 347 (1967), of the power of the police and
other authorities to conduct searches and seizures.

II.

In an attempt to check the unfettered growth in warrantless searches and seizures,
United States v. United States District Court, 407 U.S. 297, 318 (1972) made clear
the gravity of a warrantless searches and seizures in stating, “[pjrior decisions of this
Court... have emphasized that exceptions to the warrant requirement are ‘few in
number and carefully delineated’... and that the police bear a heavy burden when
attempting to demonstrate an urgent need that might justify warrantless searches and
arrests.”

III.

The nature of warrantless seizures based on exigent and emergency situations is
temporal by definition, yet state statutes vary widely in their criteria for “mental
health seizures,” with the majority excluding temporal criteria altogether, and in
many cases expanding the timeline to meet the criteria well beyond the immediate
circumstances, both past and future.

IV.

The lower courts that have extended exceptions to the warrant requirement for
“mental health seizures” beyond exigent circumstances have not even tried to
reconcile their rulings with the core principles underlying the Fourth Amendment.
Instead, they emphasize the importance of police officers' caretaking responsibilities.

17
Yet they fail to acknowledge the many existing tools that law enforcement and others
have available. Finally, although courts have identified some purported limits on
warrantless “mental health” seizures, those limits are illusory, and in any event cannot
redeem statutes that are fundamentally incompatible with foundational Fourth
Amendment principles.
ARGUMENT
Exceptions to the warrant requirement for seizures under the Fourth Amendment are
limited to exigent circumstances, yet the temporal definition of what exactly constitutes an
“emergency” in order to justify probable cause for seizing a citizen varies considerably
among state statutes and lower court rulings. This definitional deficiency contributes to the
unbridled expansion of the power of the police to seize citizens, eroding Fourth Amendment
protections.
I.

The Fourth Amendment Demands that Probable Cause Exist Regardless of Whether
Or Not A Warrant Is Issued
A.

The Common Law Spumed Warrantless Seizures of Persons

Expanding the timeline for warrantless seizures is an inverse relationship to Fourth
Amendment protections dating back to the country’s founding. In Boyd v. United States, 116
U.S. 616 (1886), Court held that “a search and seizure [was] equivalent [to] a compulsory
production of a man's private papers” and that the search was “an 'unreasonable search and
seizure' within the meaning of the Fourth Amendment.” In the published opinion, after citing
Lord Camden's judgment in Entick v Carrington, 19 Howell’s State Trials 1029, 95 Eng. 807
(1705), Justice Bradley said: “The principles laid down in this opinion affect the very essence

18
of constitutional liberty and security. They reach farther than the concrete form of the case
then before the court, with its adventitious circumstances; they apply to all invasions on the
part of the government and its employees of the sanctity of a man's home and the privacies of
life.”
B.

The Fourth Amendment Prohibits Warrantless Seizures in The Absence of
Consent or Exigent Circumstances

The Supreme Court has held that normally, a police seizure of either evidence of a
crime in a constitutionally protected area or a possible criminal defendant must be based on
probable cause (J.F. Decker, Emergency Circumstances, Police Responses, and Fourth
Amendment Restrictions, 89 J. Crim. L. & Criminology 433, 1999). The Court has repeatedly
stated that a government search or seizure on private premises without a warrant is
presumptively unreasonable (.Payton v. New York, 445 U.S. 573, 586 (1980); Coolidge v.
New Hampshire, 403 U.S. 443, 474-75 (1971)) under the Fourth Amendment (U.S. Const.
amend. IV) unless it falls within one of the “carefully delineated” (Welsh v. Wisconsin, 466
U.S. 740, 749-50 (1984) (quoting United States v. United States District Court, 407 U.S. 297,
3.18 (1972)) exceptions to the Fourth Amendment warrant clause.
Further, under the Fourth Amendment, a police officer may stop a suspect on the
street and frisk him or her without probable cause to arrest, if the police officer has a
reasonable suspicion that the person has committed, is committing, or is about to commit a
crime and has a reasonable belief that the person "may be armed and presently dangerous."
Terry v. Ohio, 392 U.S. 1 (1968). This landmark case bounded “stop and frisk” police
actions with reasonableness and immediacy, i.e., “presently dangerous.”

19
Nearly 50 years later, “totality of the circumstances” and “reasonableness” have
become the arbiters of probable cause, significantly blurring the bright line drawn initially by
the court on the need for exigent and emergency circumstances to effect a warrantless
seizure. No where is this more true than in the circumstances of a “mental health seizure.”
Yet the state statutes for those seizures are in direct contradiction to the established case law
on what constitutes objectively reasonable seizures based on the totality of the circumstances,
especially in the case of a warrantless seizure. The “Terry stop” requirement for “presently
dangerous” has expanded backward and forward in time when it comes to community
caretaking seizures.
Tennessee v. Gamer, 471 U.S. 1 (1985) established that once a Fourth Amendment
seizure occurs, the determination as to whether or not that seizure is objectively reasonable
rests on two prongs: 1) is the person in imminent threat of death or serious bodily harm; or, 2)
is the person attempting to flee, (emphasis added). In Graham v. Connor, 490 U.S. 386
(1989) the Court decided to add a “totality of the circumstances” test as known or reasonably
perceived by a police officer at the moment the seizure occurred, (emphasis added)
As provided by the Court, and later by Illinois v. Gates, 462 U.S. 213, 103 S. Ct.
2317, 76 L. Ed. 2d 527, 1983, the notion of totality of the circumstances in essence is as
follows: 1) did the officer reasonably perceive the person who was about to be seized as an
imminent threat; 2) was the person actively resisting the seizure; 3) was the person causing
circumstances that were tense, uncertain, and were rapidly evolving; 4) what was the severity
of the crime at issue; and 5) whether or not the person was attempting to evade seizure by
flight. As one example, where an anonymous tip is substantiated with actual police findings,

20

a “totality of the circumstances” approach is a suitable method of determining probable cause
instead of using the earlier two-pronged test of “veracity/reliability” and “basis of
knowledge” from Spinelli v. United States, 393 U.S. 410 (1969). These well-established
guidelines provide the guardrails that are missing from state statutes concerning community
caretaking “mental health seizures,” as they were from the judgment in Petitioner’s case.
As examples of emergency exceptions that were properly invoked using totality of the
circumstances, in Klauss, the court emphasized that the officers were acting not just on the
girlfriend's report, but on the totality of the circumstances. (Decker, Id.) State v. Klauss, 562
A.2d 558, 561 (Conn. App. Ct. 1989). The defendant was reported to be intoxicated and
upset. There was a report of gunfire, and guns were confirmed as being present in the house.
Additionally, the defendant's whereabouts were unknown. In Isaac, the situation was
escalated from a mere report of a man with a gun to an emergency situation when the officers
heard screams and saw an injured woman inside the apartment. (Id.) People v. Issac, 599
N.Y.S.2d 113, 114 (N.Y. App. Div. 1993). These cases also appear to suggest that an
unsubstantiated or anonymous tip of firearms or gunfire alone is not enough to permit use of
the emergency exception, because a tip could be fabricated by officers or others with
improper motives. (Id.) In each of these cases, there were multiple indicators as soon as the
police arrived that an emergency was underway. Across the board in state mental health
seizure statutes, the requirement for the presence of multiple indicators is missing, most
notably those that comprise exigent circumstances.
Approval of warrantless searches pursuant to arrest first appeared in dicta in several
cases. Weeks v. United States, 232 U.S. 383, 392 (1914); Carroll v. United States, 267 U.S.

21

132, 158 (1925); Agnello v. United States, 269 U.S. 20, 30 (1925). Whether or not there is to
be a rule or a principle generally preferring or requiring searches pursuant to warrant to
warrantless searches, however, has ramifications far beyond the issue of searches pursuant to
arrest. United States v. United States District Court, 407 U.S. 297, 320 (1972).
In United States v. United States District Court, (Id.), Justice Powell explained that
the “very heart” of the Amendment’s mandate is “that where practical, a governmental search
and seizure should represent both the efforts of the officer to gather evidence of wrongful
acts and the judgment of the magistrate that the collected evidence is sufficient to justify
invasion of a citizen’s private premises or conversation.” Thus, what is “reasonable” in terms
of a search and seizure derives content and meaning through reference to the warrant clause.
Coolidge v. New Hampshire, 403 U.S. 443, 473-84 (1971). See also Davis v. Mississippi,
394 U.S. 721, 728 (1969); Katz v. United States, 389 U.S. 347, 356-58 (1967); Warden v.
Hayden, 387 U.S. 294, 299 (1967).
Supreme Court rulings have long recognized “extraordinary situations where some
valid governmental interest is at stake that justifies postponing the hearing until after the
event.” (Boddie v. Connecticut, 401 U.S. 371, 379 (1971); see also Bd. ofRegents of State
Colls, v. Roth, 408 U.S. 564, 569-70 (1972)) (“When protected interests are implicated, the
right to some kind of prior hearing is paramount.”).)
These “extraordinary situations” have been described by court rulings in various
ways, [See, e.g., Roth, 408 U.S. at 570 n.7 (“rare and extraordinary situations”); Fuentes v.
Shevin, 407 U.S. 67, 90 (1972) (“truly unusual” situations); Bell v. Burson, 402 U.S. 535, 542
(1971) (“emergency situations”)];but it has grouped them into two categories: (1) occasions

22

“where a State must act quickly” and (2) those “where it would be impractical to provide
predeprivation process.” [Gilbert v. Homar, 520 U.S. 924, 930 (1997); see also Parratt v.
Taylor, 451 U.S. 527, 539 (1981), overruled on other grounds by Daniels v. Williams, 474
U.S. 327 (1986) (stating that “either the necessity of quick action by the State or the
impracticality of providing any meaningful predeprivation process, when coupled with the
availability of some meaningful means by which to assess the propriety of the State's action
at some time after the initial taking, can satisfy the requirements of procedural due
process”).]
Relevant to community caretaking seizures, in Fuentes v. Shevin, 407 U.S. 67 (1972)
the Court identified three factors necessary to justify a deprivation before a full hearing takes
place. (Joseph Blocher and Jacob D. Charles, Firearms, Extreme Risk, And Legal Design:
“Red Flag” Laws And Due Process First, 106 Va. L. Rev. 1285 (2020)) in each case the
seizure must be “directly necessary to secure an important governmental or general public
interest.” Next, there must be “a special needfor very prompt action.”, (emphasis added)
Importantly, in prior cases approving such seizures, “the State ha[d] kept strict control over
its monopoly of legitimate force; the person initiating the seizure ha[d] been a government
official responsible for determining, under the standards of a narrowly drawn statute, that it
was necessary and justified in the particular instance.” As legal experts have noted, the cases
Fuentes cited that justified seizures prior to a hearing “involved immediate, irreparable, grave
and widespread harm.” (Quasi in Rem Jurisdiction and Due Process Requirements, 82 Yale
L.J. 1023, 1028 (1973).)

23

A stark example of warrantless seizures involving “immediate, irreparable, grave and
widespread harm” is civil commitment, which, for any purpose, constitutes a significant
deprivation of liberty that requires due process protection. Sqz Addington v. Texas, 441 U.S.
418, 425 (1979). Thus, the Fourth Amendment’s protection against unreasonable search and
seizure requires probable cause before involuntary hospitalization may be ordered. Bailey,
349 F.3d at 740. “The law does not permit ‘random or baseless detention of citizens for
psychological\evaluations.’” Id. (quoting Gooden v. Howard County, 954 F.2d 960, 968 (4th
Cir. 1992)). Thus, an individual may be detained for an involuntary hospitalization “only if
there are reasonable grounds for believing that the person seized is subject to seizure under
the governing legal standard.” Villanova v. Abrams, 972 F.2d 792, 795 (7th Cir. 1992),
quoted in Raub v. Campbell, 3 F. Supp. 3d 526, 532 (E.D. Va. 2014).
Established case law under the Fourth Amendment is clear on the grave consequences
of any form of civil commitment, yet the expanding universe of community caretaking
“mental health seizures,” especially under proliferating “red flag gun laws,” remains
seemingly immune to the restrictions placed on such warrantless seizures by the courts.
C.

The Expectation of Privacy Within the Home Extends to the Office

The Court has ruled that, “the expectation of privacy with respect to one's automobile
is significantly less than that relating to one's home or office.” Opperman, 428 U.S. at 367;
see Harris v. United States, 390 U.S. 234, 236 (1968); Cooper v. California, 386 U.S. 58, 6162 (1967). Because the courts have equated home and office, Petitioner’s seizure within her
office calls into question the right to privacy under the Fourth Amendment. Privacy interests

24

intersect with the temporality of “exigent” circumstances, in that citizens have a reasonable
expectation to be free from government intrusion in their area of work.
In Katz (Id.), the court ruled on whether there is an expectation of privacy upon which
one may “justifiably” rely. Justice Harlan created a two pronged test for determining whether
the privacy interest is paramount: “first that a person have exhibited an actual (subjective)
expectation of privacy and, second, that the expectation be one that society is prepared to
recognize as ‘reasonable.’” Id. at 361. In short, Fourth Amendment protections follow the
person, and not the place.
Petitioner had a right to privacy in her office, where there was a reasonable
expectation of freedom from governmental intrusion. (Mancusi v. DeForte, 392 U.S. 364,
368 (1968) (official had a reasonable expectation of privacy in an office he shared with
others, although he owned neither the premises nor the papers seized).) Yet no place-bound
exceptions are found in any state statute regarding community caretaking. (Caniglia v.
Strom, 2020). In essence, current state laws on “mental health seizures” are a free-for-all in
terms of where and when an individual is subject to seizure, even in one’s own home or
office.
In Petitioner’s case, instead of applying the rules found in Goines (Id.), (Pet. App.
aVTI), Gooden (Id.) (Pet. App. aVII-74) and Cloaninger v. McDevitt, 555 F.3d 324 (4th Cir.
2009) (Pet. App. aVII-55) or using the roadmap established in Raub v. Campbell, 3 F. Supp.
3d 526 (E.D. Va. 2014), Raub v. Campbell, 785 F.3d 876 (4th Cir. 2015) (Pet. App. aVII-1),
the court decided to affirm a carefully constructed defense narrative, crafted by a corporate
legal team, that took place over days and fails to evaluate the reason for police presence on a

25

constitutionally protected area - the office. The court also expanded the timeline of the
implied “dangerousness” for law enforcement purposes well beyond the immediate tranquil
situation found in that office on July 13, 2017.
II.

The Temporal Nature of “Emergency And Exigent Threat” in Warrantless Seizures
Under the Fourth Amendment is Ill-Defined
Exigent circumstances were defined in United States v. McConney, 728 F. 2d 1195

(1984) as "circumstances that would cause a reasonable person to believe that entry (or other
relevant prompt action) was necessary to prevent physical harm to the officers or other
persons, the destruction of relevant evidence, the escape of the suspect, or some other
consequence improperly frustrating legitimate law enforcement efforts." In Missouri v.
McNeely, 569 U.S. 141 (2013) the Supreme Court clarified, "A variety of circumstances may
give rise to an exigency sufficient to justify a warrantless search, including law enforcement's
need to provide emergency assistance to an occupant of a home ... engage in “hot pursuit”
of a fleeing suspect... or enter a burning building to put out a fire and investigate its cause."
Although both cases suggest a clear element of immediacy to police action, the temporal
aspect remains undefined, and merely suggested by unfolding events.
In People v. Ramey, 545 P.2d 1333,1341 (Cal. 1976), the court defined “exigent
circumstances” as “an emergency situation requiring swift action to prevent imminent danger
to life or serious damage to property, or to forestall the imminent escape of a suspect, or
destruction of evidence.” (emphasis added) In adding “swift action” as a requirement, in this
instance the court at least attempted to frame police action within time limits.

26
Under the “emergency doctrine” approach there must exist an objectively reasonable
basis for a belief in an immediate need for police assistance for the protection of life or
substantial property interests (Decker, Id.). In United States v. Bute, 43 F.3d 531, 540 (10th
Cir. 1994) the court ruled that “a warrantless entry only is permitted under the Fourth
Amendment when the officer has an objectively reasonable belief that an emergency exists
requiring immediate entry to render assistance or prevent harm to persons or property
within.” As Decker explains (Id.), “the first condition that must appear before police can
take action under the authority of the emergency doctrine is the presence of a true emergency
situation where a police officer has an objectively reasonable basis for a belief that there is an
immediate need for police assistance for the protection of human life or property.” Here, the
court has defined at least entry to require “immediate” action, establishing temporal limits.
In Petitioner’s case, the police went to her office the day before she was seized on a non­
emergency call, and then returned the following day, again on a non-emergency call, clearly
establishing a non-emergency situation according to U.S. v. Bute (Id.).
There is great potential risk in expanding or over-applying exigency exceptions in
such a way as to swallow the exclusionary rule, of which community caretaking “mental
health seizures” is a perfect example. Fourth Amendment case precedent demands that
“emergency” and “exigent” circumstances for warrantless seizures are bounded bv the
timeframe of the arrival of police and their subsequent investigation in their community
caretaking role at that time. This definition necessarily removes past and future actions a
citizen might have taken/would take from the equation (both immediate and longer-term),
both of which are unknowns. Either a situation is an emergency right now, or it is not an

27

emergency. Logically, an emergency does not exist in the future. With no temporal
guardrail for warrantless searches and seizures, alleged facts are easily crafted into false
narratives implicating innocent citizens.
In 2020, none other than the Fourth Circuit expressed its hesitation in applying the
“emergency-as-exigency” exception to facts involving a Terry stop saying, “Though the
emergency-as-exigency approach may sound broad in name, it is subject to important
limitations and thus is quite narrow in application. For example, the requirement that the
circumstances present a true emergency is strictly construed—that is, an emergency must be
enveloped by a sufficient level of urgency. Indeed, standing alone, even a possible homicide
does not present an emergency situation demanding immediate [warrantless] action.” (United
States v. Curry, 965 F.3d 313, 322-23 (4th Cir. 2020) (quotation marks and citations
omitted). The Fourth Circuit has described the “intended role” of the Fourth Amendment as
“the bulwark against ‘overbearing or harassing’ police conduct.” United States v. Wilson, 953
F.2d 116, 126 (4th Cir. 1991) (citing Terry v. Ohio, 392 U.S. 1, 15 (1968)).
In an earlier decision, the Fourth Circuit acknowledged “that in the context of a
warrantless entry and search, little, if any, distinction exists in Virginia law between the
circumstances governing the application of the community caretaking doctrine and those
governing the application of the ‘emergency’ exception to the warrant requirement.” Wood v.
Commonwealth, 484 S.E.2d. 627, 630 (Va. Ct. App. 1997). Logically, then there should be
the same “envelope” standard applied to community caretaking “mental health seizures” as
other warrantless seizures. The additional of a temporal guideline for the former would serve
to equalize criteria for both community caretaking and criminal police actions.

28

Despite articulating this “envelope” approach to urgency, no temporal timeline was
given as to what exactly constitutes an “envelope” or a “sufficient level of urgency,” leaving
ample room for abuse of police power under loosely defined state statutes on community
caretaking “mental health seizures.”
A.

The Court Has Never Provided Guidance on the Actual Timespan
Constituting “Emergency And Exigent Threat” Circumstances, in Particular
With Regard to Community Caretaking and Seizures for “Mental Health
Evaluations”

There is no bright line definition of a timeline for what constitutes “dangerousness” in
the context of warrantless “mental health evaluation” seizures either in state statutes or any of
the Circuits. Adding to the problem is that the existence of exigent circumstances is a mixed
question of law and fact. (United States v. Anderson, 154 F. 3d 1225 (10th Cir, 1998) cert.
denied 119 S. Ct. 2048 (1999) (citations omitted)) Experts at the intersection of the justice
system with mental illness have long observed that police are often uninformed and
overzealous in arresting people perceived to suffer from mental illness. (Criminalizing
mental disorder. The comparative arrest rate of the mentally ill. Teplin LA, Am Psychol.
1984 Jul; 39(7):794-803.) Bittner’s 1967 seminal work on police and mentally ill citizens
underscored that the temporal nature of arrest is heavily dependent upon the seriousness of
crime committed. {Horizons of Context: Understanding the Police Decision to Arrest People
With Mental Illness. Melissa Morabito, 2007). The landmark U.S. Supreme Court decision
in O’Conner v. Donaldson, 422 U.S. 563 (1975) ruled that if an individual is not posing a

29
danger to self or others and is capable of living safely by themselves, the state has no right to
commit the individual to a facility against their will.
Since the “dangerousness” criteria was implemented in the 1970s for warrantless
community caretaking seizures, there have been limited attempts to define what that notion
means in the context of the Fourth Amendment, primarily because even experts in psychiatry
have yet to create a predictive model. As Bernadette Dallaire, et. al. reported in their
research study on civil commitment,
“[i]n a general sense, the notion of dangerousness is used to
characterise a situation, a thing or a person presenting a danger for the
physical or human environment, or for oneself. This notion refers to the
potential, possibility or probability of an undesirable, unrealised event; not a
current event but rather a risk and, by extension, to the capacity to foresee
such eventuality (Litwack 1994). In the opinion of several analysts,
dangerousness and its substrate - danger - are 'fuzzy' concepts: ... “ (Civil
commitment due to mental illness and dangerousness: the union of law and
psychiatry within a treatment-control system, Sociology of Health & Illness,
Vol. 22 No. 5, 2000, pp. 679-699.).
Given this “fuzziness” even amongst experts, Fourth Amendment protections for this
type of warrantless seizure must be strengthened.
Lower court decisions vary significantly on the issue of community caretaking and
“mental health seizures.” In State v. Vargas, 63 A. 3d 175, 213 NJ 301, the New Jersey
Supreme Court found that “the police did not have an objectively reasonable basis to believe

30

that an emergency threatening life or limb justified the warrantless entry into Vargas’
apartment.” Yet the court conceded that “the breadth of the community caretaking doctrine
has been the subject of much discussion.” In Aouatif v. City of New York, (No. 07-CV-1302,
United States District Court, E.D. New York) Aouatif argued that she did not pose a risk of
harm to herself or others, emphasizing that she displayed no violent behavior. The court
disagreed, ruling that “the Fourth Amendment, however, requires only a ‘probability or
substantial chance of dangerous behavior, not an actual showing of such behavior’ to support
a seizure for involuntary transport. Brown v. Catania, No. 3:06-CV-73 (PCD), 2007 WL
879081, (D. Conn. Mar. 21, 2007)”.
In State of Oregon v. M.A., a male Saudi national was seized under the exigency
exception after an altercation while boarding a plane. On appeal, the Oregon Court of
Appeals reversed the lower court, stating “in sum, although the record establishes that
appellant was delusional, had engaged in inappropriate behaviors, and had struggled when
being taken into custody, it does not establish that there was a "particularized and highly
probable threat to [his] safe survival," State of Oregon v. M.A, 240 Or.App. at 84, 245 P.3d
697. In another community caretaking case involving an altercation with police, Simon v.
Cook, No. 08-253, 2008, WL 3977596, Simon, an attorney in Florida, was seized by police
for a “mental health evaluation” after police officer Cook refused to take his complaint and
then Simon pointed his finger at the police officer, which was interpreted as being a
“dangerous” act. Simon spent 72 hours in detention in the hospital. These few examples
indicate the stark differences injudicial treatment across the lower courts, given the nebulous
guidelines for defining and predicting “dangerousness” to self and others.

31

B.

State Statutes, in Particular, for Warrantless “Mental Health Seizures”, Run
the Gamut from Amorphous Definitions of “Recent Threatening Behavior” to
Crystal Ball Predictions Of “Near Future” Threats

State statutes vary widely on what constitutes seizures for “mental health
evaluations,” with no temporal guidelines. According to a 2016 research study by a team of
psychiatry professionals and lawyers:
All states and Washington, D.C., allow a person to be placed and held
in a health care facility for treatment, observation, or stabilization without
consent. Current laws vary on how and for what reason a person can be held,
whether or not judicial review of the emergency hold is required, how long a
hold can last, and the rights to which a person is entitled during and after the
emergency hold. The most prevalent reason for an emergency hold is being a
danger to oneself or others,... Police in all jurisdictions have the authority to
detain a person who appears to pose an imminent danger, and 38 states
explicitly authorize police and peace or parole officers to initiate the
emergency hold process. (Hedman, L., et. al., State Laws on Emergency Holds
for Mental Health Stabilization, 2016) (emphasis added).
The study observed that “[t]he legitimacy and value of these interventions depend on
several factors: the statutory criteria and their application, [and] the accuracy of the process
for triggering an emergency hold...” (emphasis added)
A troubling result of the study revealed that “[t]he data presented here document the
expansion of emergency hold criteria outside of the danger standard. Most of these

32

additional criteria are consistent with the standard in O’Connor, but both legal and clinical
questions remain unanswered.” (emphasis added)
Legal expert Richard Boldt also found significant variation from state to state in the
statutory provisions governing the initiation and management of the civil commitment
process (Richard C. Boldt, 10 Drexel L. Rev. 1 (2017)). He observes that, “[ojver the years,
litigants have sought to establish a constitutional basis for requiring a preliminary judicial
hearing to review emergency psychiatric detentions early enough in the process to be a
meaningful check on the exertion of state authority.” Id.
In Humphrey v. Cady, 405 US 1972, the court observed that commitment to a mental
hospital produces “a massive curtailment of liberty.” But the court's ordinary preference for
pre-deprivation procedural protections, recognized in other parts of its procedural due
process jurisprudence, has not found favor with respect to emergency civil commitments. Id.
For example, Virginia’s state statute is in direct contradiction to previous rulings in
this court and the lower courts on what constitutes “exigent” and “emergency” circumstances
in that their criteria includes “in the near future,” without defining that temporal guideline.
Virginia statute Va. Code Ann. § 37.2-808(A) provides:
Under Virginia law, the police may take a person into custody and
transport that person involuntarily for a mental health evaluation pursuant to
an “emergency custody order” (“ECO”) only if there is probable cause to
believe the following: that [the] person (i) has a mental illness and that there
exists a substantial likelihood that, as a result of mental illness, the person
will, in the nearfuture, (a) cause serious physical harm to himself or others as

33

evidenced by recent behavior causing, attempting, or threatening harm and
other relevant information, if any, or (b) suffer serious harm due to his lack of
capacity to protect himself from harm or to provide for his basic human needs,
(ii) is in need of hospitalization or treatment, and (iii) is unwilling to volunteer
or incapable of volunteering for hospitalization or treatment, (emphasis added)
Similarly, under the current Colorado mental health laws, to be placed in a seventytwo-hour involuntary hold, the adult must be gravely disabled or pose an imminent danger to
themselves or someone else. (R. Tanner Sledge, Denver Law Review, Expanding Mental
Health Autonomy in Colorado (2019)) While “imminent danger” is a high standard to meet,
police officers, therapists, counselors, nurses, and other mental health experts can place an
involuntary transportation hold on the adult if it appears that the adult could cause “physical
or psychiatric harm to others or to himself or herself.” Id. .. .the evaluator must have a much
higher degree of certainty that the adult will cause danger to himself or others through a
‘‘‘'recent overt act, attempt, or threat.”W. (emphasis added). No definitions are provided for
what constitutes “could cause” harm, or how recent is “recent.” Like Virginia’s statute, the
timeline and probabilities intersect to broaden probable cause well beyond established case
law for exigent circumstances.
Ultimately, the Supreme Court may need to wade into the troubled waters of “mental
health seizures” to explain the notion of community caretaking it identified 40 years ago and
set time limits on just what exactly comprises a true emergency situation.

34

C.

The Community Caretaking Exception comprising “emergency” and
“exigent” circumstances is Antithetical to the Fourth Amendment's Protection
of the Rights of Citizens to be Free from Government Seizure

The Fourth Amendment is eviscerated by the broad and highly variable scope of state
statutes involving warrantless mental health seizures for purposes of community caretaking.
The First Circuit recently ruled that in community caretaking seizures “imminent”
does not mean “the degree of immediacy typically required under the exigent circumstances
and emergency aid exceptions.” (Caniglia v. Strom, 2021 WL 122908). In this similar case to
Petitioner’s, twelve hours had passed since a supposed suicidal statement, hardly an
“exigent” situation, yet Caniglia was still seized by police “despite his relative calm
demeanor.”
In Petitioner’s case, the Fourth Circuit’s decision relied heavily on the Defendants
stating that they told the police what was written in Defendant Wilbom’s handwritten police
report (the alleged “kill statements”), which Defendants then contradicted in their sworn
testimony, stating that they did not tell the police Petitioner was “dangerous.” Regardless of
this factual discrepancy, this meeting between police and Defendants took place the day
before Petitioner was seized. Following that meeting, both police officers left PAE’s offices
and took no action.
Previous rulings by this Court and the Circuits have laid out general factors
comprising exigent circumstances, but there remains a large gap in interpretation of what
constitutes “clear indications” in between and amongst the circuits. This lack of guidance
allows for the opportunity to go back in time for an undetermined period and make a case for

35
a warrantless seizure, thus constructing a narrative that creates probable cause where none
actually exists.
The Virginia statute is in conflict with existing case law concerning the requirements
for a warrantless seizure by including the terms “near future” and “recent behavior,” neither
of which are given a specific timeframe. Nor is the type of “dangerous” behavior made clear
in this extended timeline, clearly well beyond “exigent” circumstances. Yet Virginia is only
one of many state statutes with extended timelines for determining “dangerousness.”
For example, the New York state mental hygiene law definition of:
"likelihood to result in serious harm" or "likely to result in serious harm"
means (a) a substantial risk of physical harm to the person as manifested by
threats of or attempts at suicide or serious bodily harm or other conduct
demonstrating that the person is dangerous to himself or herself, or (b) a
substantial risk of physical harm to other persons as manifested by homicidal
or other violent behavior by which others are placed in reasonable fear of
serious physical harm. (N.Y. Mental Hyg. Law § 9.01 and 9.39)
In this state statute example, “likelihood” and “likely to result” are not temporally
defined, creating another escape clause for poor judgment calls on the part of government
officials concerning probable cause.
Petitioner’s case centers on a constructed narrative by that takes place over months,
weeks and days before her seizure from the office. Thus, the exigent circumstances are
contrived; there was no actual “emergency” necessary to meet the probable cause standard
for warrantless seizures.

36
A clear gap in the Fourth Amendment case law gives “reasonableness” and “totality
of the evidence” the upper hand, where “reasonableness” is vaguely defined and “totality”
equally amorphous. In community caretaking warrantless seizures, bounding both concepts
with temporal guidelines will necessarily limit the ever-expanding exceptions clause.
The lower courts continue to struggle with the notion of “dangerousness” and
“reasonableness” in community caretaking roles of police and other governmental officials,
in large part because the timeframe for what constitutes “dangerousness” in the mental
seizure context has not been clearly defined by the courts.
Although the lower courts, and this Court, have written extensively on the
requirement for an “emergency” and “exigent circumstances” before a warrantless seizure for
community caretaking can take place, those time-bound requirements lack definition, and as
such, leave the door wide open for abuse by unscrupulous individuals and organizations.
State statutes for warrantless seizures for “mental health evaluations” vary
considerably, and rulings by the lower courts are mixed in terms of application of those
statutes. Underscoring the lower court rulings is a lack of guidance from this Court on what
exactly constitutes an “emergency” or “exigent circumstances” in terms of temporality.
Some Courts have ruled that the “emergency” encompasses the circumstances upon arrival of
the police (State of Oregon v. M.A., Id.), while others include a timespan of events that can
take place over weeks and months leading up to the warrantless seizure (Raub, Id.), and still
others include factoring in the “probability” that the citizen will become dangerous if they are
not seized immediately (Caniglia, Id.).

37

III.

Law Enforcement Officers and Others Need Clarification on the Temporal Aspect of
The “Objectively Reasonable Standard” That Constitutes An “Emergency” For
Community Caretaking Purposes
Clarification is needed on “an objectively reasonable standard” of what constitutes an

“emergency” for community caretaking purposes, in particular for “mental health seizures.”
The over-broad definition of what constitutes “dangerousness” in state statutes must be
constrained by the immediate threat posed by an individual at the moment in time the police
arrive in their “community caretaking” role. Clarifying temporal responsibility for what
constitutes “dangerousness” removes much of the guesswork from decision-making on
whether or not to seize citizens based on the danger they pose to themselves or others in the
community, strengthening civil rights while protecting the most vulnerable.
REASONS FOR GRANTING THE PETITION
I.

The Judgment of the Fourth Circuit is a Significant Departure from Controlling
Supreme Court Precedent

II.

The Decision Below Obfuscates Established Precedent in Defining what
Constitutes Exigency and Emergency Exceptions to the Fourth Amendment
The totality of circumstances in exigent and emergency situations bounded by present

time, and especially so in community caretaking “mental health seizures.” Expanding the
timeline indefinitely is in stark contrast to existing case precedent limiting exigent
circumstances to the extraordinary.

38

III.

The Decision Below Opens the Floodgates to Continued Expansion of the
Exigency and Emergency Exceptions to the Fourth Amendment, Eviscerating a
Bedrock Constitutional Protection
There remains a glaring gap in the Fourth Amendment’s warrantless seizure

exception concerning the temporal nature of emergency and exigent circumstances that
demands clarity and definition.
The continued expansion of the warrant exception based on a panoply of loosely
defined state statutes for involuntary commitment seizures continues to erode Fourth
Amendment protections.
This court must provide bright line guidance on exceptions to warrants, particular in
the case of involuntary commitment, which, despite its temporal nature, does permanent and
far-reaching damage to an individual.
The sheer numbers of ordinary citizens placed on “involuntary holds” as a result of
warrantless seizures is staggering, in the thousands in nearly every state, every year.
Bounding the temporal definition of “exigent” and “emergency” will serve to significantly
reduce this number and with it, the burden on police and hospitals in order to care for the
truly ill.
With no temporal guardrail for warrantless searches and seizures, alleged facts are
easily crafted into false narratives implicating innocent citizens, including and especially
women reporting gender based violence. Thus, those temporal “guardrails” must be clarified
for exceptions to the warrant requirement under the Fourth Amendment or courts will see
many more cases like Petitioner’s, especially under the new “red flag gun laws.”

39
The continued lack of temporal definition of “exigent circumstances” is an invitation
to careen down a slippery slope toward a Soviet-style gulag state, where “facts” supporting
the removal of individuals from the safety of their homes and offices and into state-sponsored
institutions serves a singular and terrible end.
CONCLUSION
For the foregoing reasons, this petition for a writ of certiorari should be granted. The
judgment below should be reversed.

Dated: February 11, 2021

Respectfully submitted,

By:
Kerrin A. Barrett, PhD
PRO SE
5753 Highway 85 N, No. 2926
Crestview, FL 32536
(850)331-8916

